<html>
<title> - SCHOOL TRUST LANDS OWNERSHIP WITHIN FEDERAL CONSERVATION AREAS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
    SCHOOL TRUST LANDS OWNERSHIP WITHIN FEDERAL CONSERVATION AREAS

=======================================================================

                           OVERSIGHT HEARING

                               before the

                      SUBCOMMITTEE ON PUBLIC LANDS

                      AND ENVIRONMENTAL REGULATION

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      Tuesday, September 10, 2013

                               __________

                           Serial No. 113-40

                               __________

       Printed for the use of the Committee on Natural Resources


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
      



                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
82-947                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1f786f705f7c6a6c6b777a736f317c707231">[email&#160;protected]</a>  


                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Raul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Cardenas, CA
Paul A. Gosar, AZ                    Steven A. Horsford, NV
Raul R. Labrador, ID                 Jared Huffman, CA
Steve Southerland, II, FL            Raul Ruiz, CA
Bill Flores, TX                      Carol Shea-Porter, NH
Jon Runyan, NJ                       Alan S. Lowenthal, CA
Mark E. Amodei, NV                   Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Chris Stewart, UT                    Vacancy
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Jason T. Smith, MO

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON PUBLIC LANDS AND ENVIRONMENTAL REGULATION

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Niki Tsongas, MA
Louie Gohmert, TX                    Rush Holt, NJ
Doug Lamborn, CO                     Madeleine Z. Bordallo, GU
Paul C. Broun, GA                    Gregorio Kilili Camacho Sablan, 
Tom McClintock, CA                       CNMI
Cynthia M. Lummis, WY                Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Raul R. Labrador, ID                 Steven A. Horsford, NV
Mark E. Amodei, NV                   Carol Shea-Porter, NH
Steve Daines, MT                     Joe Garcia, FL
Kevin Cramer, ND                     Matt Cartwright, PA
Doug LaMalfa, CA                     Vacancy
Jason T. Smith, MO                   Peter A. DeFazio, OR, ex officio
Doc Hastings, WA, ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, September 10, 2013......................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     1
        Prepared statement of....................................     2
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Baier, Maria, Chief Executive Officer, Sonoran Institute.....    12
        Prepared statement of....................................    13
    Donaldson, Timothy, School Children's Trust Director, Utah 
      State Office of Education..................................     4
        Prepared statement of....................................     5
    Opp, Kathy, President, Western State Land Commissioners 
      Association and Deputy Director, Idaho Department of Lands.     6
        Prepared statement of....................................     7

Additional Material Submitted for the Record:
    Abrams, Mary M., Ph.D., Director, Oregon Department of State 
      Lands, Prepared statement of...............................    22
    Ogsbury, James D., Western Governors' Association, Letter 
      submitted for the record...................................    24
                                     



   OVERSIGHT HEARING ON SCHOOL TRUST LANDS OWNERSHIP WITHIN FEDERAL 
                           CONSERVATION AREAS

                              ----------                              


                      Tuesday, September 10, 2013

                     U.S. House of Representatives

       Subcommittee on Public Lands and Environmental Regulation

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 11:05 a.m., in 
room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, McClintock, Lummis, 
Daines, Cramer, Grijalva, and Garcia.
    Mr. Bishop. All right, the committee will come to order, 
even though you are not doing anything out there, anyway. We 
notice the presence of a quorum who is here.
    The Subcommittee on Public Lands and Environmental 
Regulation is meeting today to hear testimony on school trust 
land ownership and the relationship with Federal conservation 
areas.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. With the approval of the committee, I am going 
to put most of my statement in its written form in there. I 
just want to highlight the fact that we are talking about 
States' trust lands that are scattered out especially in the 
West, where we have millions of acres, but many of them are 
locked up in areas in which we cannot get to them, which they 
cannot be used, where their value is not as significant as if 
they were actually blocked together into a usable pattern. 
Western management is extremely significant to that. It has 
taken us a long time to try and move those things forward.
    In Utah, for example, we passed a law trying to speed this 
process up in 2009. That fast track still hasn't come into 
effect. So if our fast-track effort is taking a half-a-decade 
we realize that something is terribly wrong with the system and 
the process, and it needs to be fixed.
    So, I appreciate inviting the witnesses who have come here, 
who I think will tell us that there is possibly a way of doing 
it, if once again we all are with patience, with good will, try 
to work in a collaborative effort to find the best solution to 
how we find these lands and how we use these lands.
    So, I appreciate the witnesses who are with us. I 
understand one of our witnesses has missed a connecting flight, 
so may or may not actually show up at some time. But we thank 
you for your efforts to travel here.
    With that, I wish the rest of my statement to be placed 
into the record, and I will turn to Representative Grijalva, 
first of all, for opening statements.
    [The prepared statement of Mr. Bishop follows:]

Prepared Statement of The Honorable Rob Bishop, Chairman, Subcommittee 
              on Public Lands and Environmental Regulation

    The Subcommittee on Public Lands and Environmental Regulation is 
meeting today to hear testimony on school trust land ownership and the 
relationship with Federal conservation areas. State trust lands, 
granted to the Western States at statehood, are to be managed for the 
benefit of public education. The scattered, checkerboard-like pattern 
of State trust lands places many parcels in restrictive federally 
designated conservation areas, complicating management and severely 
limiting the land's value for the beneficiaries. Nearly 1,000,000 acres 
of State trust lands are inaccessible because they are located within 
these restrictive federally designated areas.
    Consolidating State trust lands in high value, mineral-rich, and 
accessible areas should be a priority for this committee, the entire 
Congress, the administration, and non-governmental stakeholders. Trust 
land consolidation boosts public education funding, creates jobs and 
economic diversity for rural communities, and allows Federal land 
managers to oversee cohesive landscapes. This type of win-win-win 
rarely exists in western land management topics.
    The existing process to consolidate trust lands is broken. Despite 
the win-win scenarios created by consolidations, land exchanges are too 
costly, too timely, and overly bureaucratic. In Utah, a congressional-
directed land exchange authorized in 2009 has yet to be completed. 
Congress directed this exchange in order to bypass the sluggish 
administrative route. If the fast-track option takes more than 4 years, 
it's safe to assume that all aspects of the system--both congressional 
and administrative--are flawed and reform is needed.
    Western land management has a profound impact on families, local 
communities, and future generations. Congress, land managers, and 
stakeholders must work together to develop land management strategies 
that make sense for all involved. Successful land management strategies 
can only be achieved when land management agencies, stakeholders, and 
elected officials work together, like we are here today in this open 
meeting. No single agency, interest, or constituency should trump 
another. The stakes are too high to ignore other interests or to be so 
rigid in one's mission as to preclude long-term development 
opportunities. Win-win scenarios can be achieved, but they will require 
an openness to collaborate, think differently, and to break the 
bureaucratic tendencies of the past.
                                 ______
                                 

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman, and thank you for 
holding the hearing. I want to also thank the witnesses for 
taking time out of their busy schedules to testify today.
    As a former school board member, school trust lands are 
very important, as a source of revenue, in trying to meet the 
overall budgetary and curricular demands that any school 
district has anywhere, and particularly in the West. And I am 
going to hear about a proposal today that allows States to 
trade trust lands surrounded by Federal land for other 
unappropriated Federal land. States and education proponents 
are clear benefactors of this proposal. And, if done right, a 
proposal like this could find support among conservation groups 
and Federal land managers.
    As an advantage to consolidating Federal land, it helps 
land managers be able to focus their resources on concentrated 
areas, and states will be able to find new and more effective, 
efficient ways to fund public education. I think the whole 
proposal is about getting the details right.
    And, moving forward, we have to have--we have to ensure 
that land exchanges are transparent and open, following 
established Federal standards, and not taking unnecessary 
shortcuts. We do not want to shortcut or sideline any 
commitment in order to make this work. Environmental review and 
protected endangered species cannot be tossed out with the 
bathwater.
    I am looking forward to hearing from our witnesses. And, 
like I said, if done correctly, this can be a win-win for 
everybody involved.
    With that, let me yield back, and thank you, Mr. Chairman.
    [The prepared statement of Mr. Grijalva follows:]

 Prepared Statement of The Honorable Raul M. Grijalva, Ranking Member, 
       Subcommittee on Public Lands and Environmental Regulation

    Thank you, Mr. Chairman, for holding this hearing. I would also 
like to thank the witnesses for taking the time out of their schedules 
to testify today.
    School trust lands are an important source of revenue for public 
education in many States, especially across the West. I started my 
political career as a school board member and understand how it 
important it is to make sure our schools have the resources they need 
to meet the growing challenges of educating our Nation's youth.
    Congress granted States entering the union trust land with the sole 
purpose of providing revenue for public education. Since then, a lot 
has happened. We've established national parks and other Federal 
conservation areas, protecting some of the most important aspects of 
our national and cultural heritage.
    Our public lands are visited by millions of Americans each year and 
outdoor recreation supports over 6 million jobs across the county. Our 
conservation successes are a major economic engine for the country and 
a source inspiration for the millions of annual visitors, but there are 
still challenges we have to address.
    Today we will hear about a proposal to allow States to trade trust 
land surrounded by Federal land for other, unappropriated Federal land. 
States and education proponents are the clear benefactors of this 
proposal, but if done right, a proposal like this could also find 
support with conservation groups and Federal land managers. 
Consolidating ownership of Federal lands can be a win-win that will 
save taxpayer money and improve conservation efforts.
    Land managers will be able to focus their resources on concentrated 
areas and States will be able to find new and more efficient ways to 
fund public education.
    Getting the details right is paramount. Moving forward, we have to 
ensure that land exchanges are transparent and open, following 
established Federal standards and not taking unnecessary shortcuts. We 
do not want to shortcut or sideline any other commitments in order to 
make this work. Environmental review and protected endangered species 
cannot be tossed out with the bathwater.
    I look forward to hearing from our witnesses and starting this 
important conversation.
                                 ______
                                 
    Mr. Bishop. Thank you. Under the rules, obviously, opening 
statements are required by the chairmen. The subcommittee and 
full committee, any other Member who wishes to have an opening 
statement can be part of the record if given to our staff by 
the close of business today.
    I'd like to welcome you here. We will turn to our first 
panel, if we could. And we welcome Tim Donaldson, who is the 
School Children's Trust Director from the Office of Education 
in the State of Utah; Kathy Opp, who is the Deputy Director of 
Department of Lands in the State of Idaho; and Maria Baier?
    Ms. Baier. Baier.
    Mr. Bishop. Baier. Got the German right the first time. OK. 
Maria Baier, who is the Chief Executive Officer of the Sonoran 
Institute. We welcome all of you. We appreciate you traveling 
this distance to give the testimony that you have today. Your 
written testimony is, obviously, part of the record. We will 
ask for you to add your oral testimony on top of that, and then 
be open for questions afterwards.
    For those of you who have not been here before, the oral 
testimony is limited to 5 minutes. We are on a time line. There 
is a time when we want to end. So we would ask you to watch the 
clock ahead of you diligently. When the light is green on 
there, you still have plenty of time. When it is yellow, you 
don't have a whole lot of time. You have got 1 minute left. 
Hustle it up, because when it is red I want you to stop, even 
if you are in mid-sentence. And we will apply that same 
standard to us, when we ask questions, as well.
    So, let me turn to the panel. We thank you for being here.
    Mr. Donaldson, we are ready for your opening statement.

    STATEMENT OF TIMOTHY DONALDSON, SCHOOL CHILDREN'S TRUST 
            DIRECTOR, UTAH STATE OFFICE OF EDUCATION

    Mr. Donaldson. Thank you, Chairman, Ranking Member, and 
members of the subcommittee, my name is Tim Donaldson, and I am 
the School Children's Trust Section Director at the Utah State 
Office of Education. I thank the subcommittee for conducting 
this hearing on the critical issue of how to resolve the 
tensions between school trust lands and Federal land ownership. 
I am before you today to support this new idea to accommodate 
more effective school trust land management, and improve 
Federal conservation management.
    Funding public education in Utah is one of our more 
intractable public policy problems. In Utah we have seen 
dramatic growth in funding for public education coming from the 
school land trust program. In the 2000-2001 school year, for 
example, 13 years ago, the school trust provided approximately 
$5 million for public education, which was less than \1/10\ of 
1 percent of the overall education budget. For the school year 
which just began, this 2013-2014 school year, the distribution 
from the school trust was over 37 million, which was over 1.2 
percent of the overall public education budget. This is fast-
growing money which has doubled in size approximately every 5 
years.
    It is also tax-free money, which makes it a gold mine for 
helping with the challenge of funding public schools in our 
State, a State which has the lowest per-pupil spending for 
public education in the country. With the uniquely large ratio 
of K through 12 students to taxpaying workers in Utah, the need 
is dire for us to maximize every public education funding 
resource that we have.
    There are other Western States which provide for a 
significantly larger proportion of the public education budget 
through their school trust lands and corresponding permanent 
school funds. It is our belief in Utah that the school trust 
will be a big part of the solution as we work to more fully 
fund public education in the years and decades to come.
    There have been decades of contention in Utah between 
public education advocates and Federal land management 
agencies, as hundreds of thousands of school trust land acres 
were captured in national parks, monuments, and other Federal 
conservation designated areas. Had this proposal, which is 
before you today, been in effect then, the interest of public 
education would have been more fully valued, and tensions would 
have been diminished.
    As a quick historical reminder, Thomas Jefferson was a 
critical early supporter of public education in America. And 
the school trust lands largely owe their existence to his 
vision. Jefferson envisioned a self-governing republic of 
educated, informed citizens enjoying the blessings of 
civilization and the arts, advancing scientific knowledge, and 
developing technology to enhance and enrich the way we all live 
our lives.
    Finally, on a personal note, my wife is a first-grade 
teacher at a West Side school in Salt Lake County. Mrs. D, as 
her students call her, has 33 students in her classroom this 
year, including one student with autism, one student with 
Asperger's, and one student who is a refugee from Iraq. She 
does not have an aide. More school trust lands money would help 
provide for more teachers and more aides.
    I see in here every night how challenging it is for our 
educators to fulfill the promise of our society and provide a 
high-quality public education to all of our students. We need 
to fully utilize every resource that we have to help fund 
public education. We need the tools in place to work through 
the inevitable land management conflicts in such a way that 
Jefferson's vision of lands held in trust to support public 
education can fully be realized.
    I thank the subcommittee for your attention to this 
important matter, and we look forward to working with you as 
legislation is crafted that can gain broad, bipartisan support, 
and ultimately be enacted to help better fund the education of 
our children.
    Thank you for the opportunity to testify, and I would be 
happy to answer any questions.
    [The prepared statement of Mr. Donaldson follows:]

   Prepared Statement of Timothy Donaldson, School Children's Trust 
                Director, Utah State Office of Education

    Chairman Bishop, Ranking Member Grijalva, and members of the 
subcommittee, my name is Tim Donaldson and I am the Director of the 
School Children's Trust Section at the Utah State Office of Education. 
I thank the subcommittee for conducting this hearing on the critical 
issue of how to resolve the tensions between school trust lands and 
Federal land ownership. I am before you today to support this new idea 
to accommodate more effective school trust land management and improved 
Federal conservation management.
    In Utah we have seen dramatic growth in funding for public 
education coming from the School LAND Trust Program. In the 2000-2001 
school year, the school trust provided approximately $5 million for 
public education, which was less than \1/10\ of 1 percent of the 
overall public education. For the school year which just began, the 
2013-2014 school year, the school trust distribution was over $37 
million, which represented 1.2 percent of the overall public education 
budget. This is fast-growing money, which has doubled in size 
approximately every 5 years. It is also tax-free money, which makes it 
a gold mine for helping with the challenge of funding public schools in 
our State, a State which has the lowest per-pupil spending for public 
education in the country. With a uniquely large ratio of K-12 students 
to tax-paying workers in Utah, the need is dire for us to fully 
maximize every public education funding resource that we have.
    There are other Western States which provide for a significantly 
larger proportion of the public education budget through their school 
trust lands and corresponding permanent school funds. It is our belief 
in Utah that the school trust will be a big part of the solution as we 
work to more fully fund public education in the years and decades to 
come. There have been decades of contention in Utah between public 
education advocates and Federal land management agencies, as hundreds 
of thousands of school trust land acres were captured in national 
parks, monuments, and other Federal conservation designations. Had this 
proposal which is before you today been in effect then, the interests 
of public education would have been more fully valued and tensions 
would have been diminished.
    Thomas Jefferson was a critical early supporter of public education 
in America, and the school trust lands largely owe their existence to 
his vision. Jefferson envisioned a self-governing republic of educated, 
informed citizens enjoying the blessings of civilization and the arts, 
advancing scientific knowledge, and developing technology to enhance 
and enrich the way we all live our lives.
    My wife is a first grade teacher at a west-side school in Salt Lake 
County. Ms. Donaldson has 33 students in her classroom this school 
year, including one student with Autism, one student with Asperger's, 
and one student who is a refugee from Iraq, and she does not have an 
aide. More school trust lands money would help provide for more 
teachers and aides. I see and hear every night how challenging it is 
for our educators to fulfill the promise of our society and provide a 
high-quality public education to all of our students. We need to fully 
utilize every resource that we have to fund public education. We need 
the tools in place to work through the inevitable land management 
conflicts in such a way that Jefferson's vision of lands held in trust 
to support public education can be fully realized.
    We thank the subcommittee for your attention to this important 
matter and we look forward to working with you as legislation is 
crafted that can gain broad bipartisan support and ultimately be 
enacted to help better fund the education of our children. Thank you 
for the opportunity to testify and I would be happy to answer any 
questions.
                                 ______
                                 
    Mr. Bishop. Thank you. We will turn now to Ms. Opp.
    Welcome from the Gem State. Once again, 5 minutes for your 
opening statement. We are happy to have you.

     STATEMENT OF KATHY OPP, PRESIDENT, WESTERN STATE LAND 
COMMISSIONERS ASSOCIATION AND DEPUTY DIRECTOR, IDAHO DEPARTMENT 
                            OF LANDS

    Ms. Opp. Good morning, Chairman Bishop, Ranking Member 
Grijalva, and members of the subcommittee. My name is Kathy 
Opp, and I am the current President of the Western State Land 
Commissioners Association, as well as being Deputy Director for 
the Idaho Department of Lands. I thank this subcommittee for 
conducting this hearing this morning to examine a new tool, 
which is actually an old tool, for potentially resolving land 
tenure issues between State endowment trust lands and Federal 
land management.
    The WSLCA is comprised of 23 Western States who share a 
common mandate for managing trust lands on behalf of our 
schoolchildren in each of our States. As a group, we are the 
second-largest land manager in the Nation, second only to the 
Federal Government. Currently, our combined educational trust 
funds amount to over $271 billion. And in 2012 we earned and 
distributed over $3.8 billion for public schools, primarily K 
through 12. Our members manage lands for multiple purposes, 
commercial and residential development, mineral and energy 
development, timber harvest, agriculture production, critical 
wildlife habitat, recreation, open space, and a myriad of other 
revenue-generating opportunities for our beneficiaries.
    By nature of the statehood acts, the millions of acres that 
we received are interspersed with Federal land ownership in the 
West: 93 percent of current Federal ownership lies within 11 
most western States and Alaska. Their Federal ownership 
comprises 52 percent of the land base. And in Idaho, for 
example, 62 percent of all the lands are owned by the Federal 
Government.
    The inter-mingled lands that are owned by the Department of 
the Interior and the U.S. Forest Service have very different 
land management mandates from the legal mandate that is placed 
upon State trust land managers. The States are obligated to 
manage endowment lands with undivided loyalty to a single 
purpose: to general revenue for public schools and our State 
institutions.
    Existing administrative and legislative solutions to 
resolved mixed ownership is costly, complicated, and 
unpredictable. Federal policies and guidelines have made 
exchanges nearly impossible to complete in a reasonable 
timeframe. Many of our member States cite specific examples of 
such exchanges taking well over a decade. And the funding to 
purchase State trust lands in holdings has been eliminated due 
to ongoing concerns of fiscal responsibility.
    So, the bottom line is that the existing options to remove 
State lands from within Federal conservation areas just don't 
seem to work effectively.
    The WSLCA is proposing legislation similar to existing 
Federal statutes that permit in lieu selections of Federal 
public lands. The process, which was used at statehood, allowed 
the States to select Federal lands, in lieu of those that were 
already encumbered due to existing ownership at statehood, from 
designations like homesteads or an Indian reservation. 
Replacement lands would be chosen from unappropriated Federal 
public lands within the State.
    We believe we have built a broad spectrum of support for 
our proposal, including the WGA, whose materials we submitted 
with testimony.
    We are now turning to this committee to assist in crafting 
bipartisan legislation that will implement a satisfactory 
proposal.
    In conclusion, it is important to note that the current 
proposal is not a proposal to dispose of the Federal public 
land base. Rather, it is a mechanism for the United States to 
acquire State trust lands with high conservation values, while 
timely and equitably compensating the States for the same 
through alternative selections.
    Because the in lieu mechanism has worked previously by 
Congress, we don't believe it will be difficult to implement. 
Existing and proposed conservation designations on Federal 
lands which trap State endowment trust lands have the effect of 
depriving Western States of fulfilling our fiduciary duty to 
educate its citizenry. The proposed legislation promotes 
conservation, while giving the States the benefit of their 
statehood bargain with the United States.
    I thank the committee for your attention to this issue and 
this matter, and we look forward to working with you to craft 
legislation to gain broad support and ultimately enact a better 
way to fund education for our children. Thank you for your time 
and opportunity to testify. I would be happy to answer any 
questions.
    [The prepared statement of Ms. Opp follows:]

    Prepared Statement of Kathy Opp, President, Western State Land 
  Commissioners Association and Deputy Director, Idaho Department of 
                                 Lands

    Chairman Bishop, Ranking Member Grijalva, and members of the 
subcommittee, my name is Kathy Opp and I am the current President of 
the Western State Land Commissioners Association in addition to my 
duties as the Deputy Director of the Idaho Department of Lands. I thank 
the subcommittee for conducting this hearing to examine how to resolve 
the land tenure issues between State school and institutional trust 
lands and Federal land ownership. I am before you today to propose a 
new tool for States to more effectively manage our school trust lands 
and to improve the management of Federal conservation lands.
    The Western States Land Commissioners Association (``WSLCA'') is 
comprised of 23 western, and some not so western, States who share the 
common mandate of managing trust lands on behalf of school children in 
our States. These lands are managed on a bi-partisan basis, with the 
beneficiaries first and foremost to our mission. Upon statehood, our 
member States were entrusted with hundreds of millions of acres of 
lands and minerals to be managed specifically to provide funding for 
public education and other State institutions. Today, our member States 
manage over 447 million acres of public trust lands, endowed trust 
lands, submerged lands, and minerals. To put this in perspective, 447 
million acres is roughly 2\1/2\ times the size of Texas. As a group, we 
are the second largest land manager in the Nation, second only to the 
Federal Government. Since 1949, our Association has gathered with the 
goal to educate and inform one another about sound policy and best 
practices to ever improve the management of these lands on behalf of 
our beneficiaries. Currently, our combined educational trusts amount to 
over $271 billion which generated over $3.8 billion for public schools 
in 2012. Our members manage land for many purposes, including mineral 
and energy development, timber, agricultural production, commercial and 
residential development, open space, critical wildlife habitat, 
recreation, and a myriad of other uses that generate funds for public 
schools and other endowed institutions.
    The vast majority of the 447 million acres of lands and minerals 
that our member States manage by the nature of our statehood acts are 
interspersed with Federal lands throughout the West. During early 
settlement in the Midwest from 1803 to 1858, States were granted one 
section per township. In the arid West, between 1859 and 1890, States 
were provided with two sections per township, and in the really arid 
West, meaning Utah, Arizona, and New Mexico, these States were granted 
four sections per township. Ninety-three percent of the Federal lands 
lie within the 11 most Western States and Alaska. There, Federal 
ownership comprises 52 percent of these States. In Idaho, approximately 
62 percent of all lands within the State are owned by the Federal 
Government. In many cases, the scattered State sections are intertwined 
with lands managed by the Department of the Interior and the U.S. 
Forest Service where land management mandates vary drastically from the 
legal mandates placed upon State trust land managers. Pursuant to our 
statehood acts and State constitutional mandates, States are obligated 
to manage these lands with undivided loyalty to a single purpose--to 
generate revenue for public schools and state institutions.
    According to the U.S. Supreme Court in Andrus v. Utah, ``the school 
land grant was a `solemn agreement' which in some ways may be 
analogized to a contract between private parties. The United States 
agreed to cede some of its land to the State in exchange for a 
commitment by the State to use the revenues derived from the land to 
educate the citizenry.'' However, because the settlement and 
privatization of Federal lands largely came to an end with the passage 
of the Taylor Grazing Act in 1934, millions of acres of trust lands 
remain within Federal ownership. For almost a century, Congress has 
made decisions to reclassify Federal lands with a wide range of 
management and policy prescriptions. While the Park Service approaches 
its 100th anniversary and as the country now appreciates nearly 50 
years of designated Wilderness, the mandate for school trust lands has 
remained constant for over 200 years. Congressional actions and policy 
decisions over the decades have locked up millions of acres of school 
lands and minerals within National Parks, Wilderness areas, Wildlife 
Refuges, National Monuments and other Federal designations. In order to 
keep the ``solemn promise'' to the school children of our States, we 
must craft effective tools to move these trapped state trust lands and 
minerals from within constrictive Federal ownership into other 
locations where the generation of income is appropriate and acceptable.
    Existing administrative and legislative solutions are costly, 
complicated, unpredictable, and horribly time consuming. Administrative 
land exchanges with agencies within the Department of the Interior or 
with the U.S. Forest Service are inadequate as the sole tool to 
complete land transfers between States and the Federal Government. The 
Department of Interior has implemented policies and guidelines that 
have made administrative exchanges nearly impossible to complete in any 
reasonable timeframe. Moreover, the Department has failed to make the 
exchange process a priority and therefore funding has been woefully 
inadequate for years. Many of our member States can cite specific 
examples of administrative exchanges taking over a decade to complete.
    Frustrated with the administrative process, some States have turned 
to Congress to effectuate these exchanges. The Owyhee Land Exchange is 
an Idaho example. The Owyhee Initiative designated 517,000 acres of 
wilderness (map shown Attachment A) with the goal to create and 
maintain a functioning, unfragmented landscape. Since 2008 the BLM and 
the Idaho Department of Lands have identified approximately 35,000 
acres on each side of the ownership equation that is in the best 
interest of both entities to exchange within the area. The best case 
scenario for estimated completion is now 2015. In the interim, Federal 
permittees and State trust land lessees remain in limbo, unable to 
effectively plan an economically viable future.
    As the committee is well aware, the congressional process is 
unpredictable, often expensive, and can still take years to complete 
even if there is broad support for a proposed exchange. Last, funding 
to purchase State inholdings within Federal conservation areas has 
essentially disappeared as budgets for these purposes have been reduced 
dramatically over recent decades to address ongoing concerns of fiscal 
responsibility. The bottom line is that our existing options for 
removing State lands from within Federal conservation areas just do not 
work effectively.
    For several years, WSLCA has been working with our member States, 
Members of Congress, and outside groups to craft a proposal that we 
believe will be an effective tool to allow States to efficiently remove 
their lands from inside Federal conservation areas and relocate these 
values to locations that are more appropriate for the generation of 
revenue for schools and state institutions. Additionally, our proposal 
will enhance Federal conservation and management areas by eliminating 
the State owned inholdings. We believe we have built a broad spectrum 
of support for our concept and we are now turning to this committee to 
assist in crafting bi-partisan legislation that will implement our 
proposal.
    As a supplement to exchanges and purchases, WSLCA is proposing 
legislation similar to the existing Federal statutes (43 U.S.C. 851-
852) that permit State ``in lieu'' selections of Federal public lands. 
These statutes, originally codified as Revised Statutes 2275-2276, 
allow western land grant States to select Federal lands in lieu of 
lands originally granted to the States that ended up not being 
available due to preexisting conveyances or Federal special purpose 
designations. By way of example, if the Federal Government had created 
an Indian reservation or issued a homestead patent before a State's 
title to a particular State parcel had vested, the state was entitled 
to select an equal amount of available Federal land in lieu of the 
lands that were lost (in lieu selections are often synonymously 
referred to as ``indemnity'' selections).
    By creating new conservation designations that have limited the 
States from utilizing school lands for their intended purposes, the 
United States has in a very real sense failed to live up to the promise 
of the statehood land grants. The WSLCA proposal would help rectify 
this situation by confirming the right of the States to relinquish 
State trust lands within Federal conservation designations to the 
United States, and select replacement Federal lands outside such areas. 
This would allow the Federal Government to obtain unified ownership and 
management authority over areas deemed important for conservation 
management. It would also uphold the ``bargain'' struck by the United 
States and the Western States under which the States would be granted 
useable land for the support of public schools and other public 
institutions. Concerns also exist within many Western States about 
recent petitions to list threatened and endangered species, 
particularly the sage grouse. Where priority habitat for sage grouse 
exists within these conservation designations, this circumstance could 
likely create additional constraints to managing State lands. This bill 
would facilitate another means by which States could dispose of lands 
constrained by threatened and/or endangered species considerations.
    The mechanism of relinquishment and selection has been utilized 
previously by Congress, and should not be difficult to implement. Under 
the WSLCA proposal, States owning lands within Federal conservation 
designations would simply deed the lands back to the United States, 
subject to any valid existing rights. This conveyance would entitle the 
states to select replacement lands from the unappropriated Federal 
public lands within the State utilizing the existing process for such 
selections set forth in 43 CFR part 2620 (2010). WSLCA believes that 
the Federal legislation should also incorporate the following concepts 
previously adopted by the Department of the Interior in its guidance 
and agreements concerning state indemnity selections:

    --In the application of law, regulations and policy concerning 
            indemnity selections, the equities of the States should be 
            considered to the greatest degree permitted;
    --Valuation of lands relinquished by the States, and State 
            selections, should be based on ``roughly equivalent 
            value'', utilizing appropriate valuation materials, but not 
            requiring expensive formal appraisals;
    --Because BLM Resource Management Plans (RMPs) rarely mention State 
            indemnity selections, it is appropriate to presume that 
            State selections are plan-compliant unless significant 
            public values will be lost or impaired by the selection; 
            and
    --Conveyance of lands to the States through the selection process 
            should be deemed to be in the national interest under 
            section 102(a)(1) of FLPMA.

    All of the above concepts were agreed by the BLM in a Memorandum of 
Understanding between BLM and WSLCA dated January 8, 1981, and 
incorporated in departmental guidance in 1981 and 1982. These concepts 
were recently reiterated in the Master Bureau-wide Memorandum of 
Understanding Between United States Department of the Interior, Bureau 
of Land Management and The Western States Land Commissioners 
Association Concerning Management of Public and State Trust Lands and 
Resources in the Western United States, Agreement Number BLM-WO-300-
2012-02. In addition to these items, WSLCA believes that it is 
appropriate to impose reasonable time deadlines on the BLM's processing 
of State selection applications, because the recent experience of the 
States has been that BLM is often hampered given competing demands and 
limited budgets to process state selection actions in a timely manner.
    At the same time, WSLCA acknowledges environmental and economic 
realities associated with the transfer of lands out of Federal 
ownership. WSLCA does not object to requirements for NEPA analysis of 
State selections (so long as BLM continues its customary practice of 
funding necessary studies). In addition, because selections would be 
limited to unappropriated public lands, the right to select lands would 
not extend to areas such as wilderness, national forests, and other 
conservation or special purpose designations.
    In conclusion, it is important to note that the current proposal is 
not a proposal for the disposition of the Federal public land base, 
rather a mechanism for the United States to acquire State trust lands 
with high conservation values, while timely and equitably compensating 
the States for the same through the selection of replacement lands. The 
U.S. Supreme Court has clearly held that the original purpose of the in 
lieu selection process was to give the States the benefit of the 
bargain struck at statehood--if lands were not available to the states 
for educational purposes, the States could select replacement lands. 
Existing and proposed conservation designations on Federal lands have 
the effect of depriving the Western States of the ability to use 
granted trust lands for their original purpose--public education. The 
proposed legislation promotes conservation while giving the States the 
benefit of their statehood bargain with the United States.
    We thank the subcommittee for your attention to this important 
matter and we look forward to working with you to craft legislation 
that can gain broad support and ultimately be enacted to better fund 
the education of our children. Thank you for the opportunity to testify 
and I would be happy to answer any questions.

[GRAPHIC] [TIFF OMITTED] T2947.001

                                 
    Mr. Bishop. Thank you, again, for your testimony.
    Ms. Baier, we will turn to you from the Sonoran Institute 
for the same 5-minute opening statement, please.

  STATEMENT OF MARIA BAIER, CHIEF EXECUTIVE OFFICER, SONORAN 
                           INSTITUTE

    Ms. Baier. Oh, thank you. Chairman Bishop, Ranking Member 
Grijalva, Congresswomen, Congressmen, thank you for the 
privilege of testifying before this subcommittee today.
    Mr. Bishop. I don't want to interrupt you again, either, I 
am sorry, but can you pull that even closer to your mouth?
    Ms. Baier. Yes. Does that work better?
    Mr. Bishop. That is much better.
    Ms. Baier. OK, thank you. For the record, my name is Maria 
Baier, and I am the CEO of the Sonoran Institute, which is a 
501(c)3 non-profit organization that does land conservation 
work across Western North America. The Sonoran Institute has 
been interested in land management issues since its inception, 
and we have produced a number of publications on the subject, 
some of which I brought today and would leave for staff to 
share with you, if you wish.
    Prior to my tenure at the Sonoran Institute, I served as 
the Arizona State Land Commissioner. While there, along with 
the Sonoran Institute, we worked with the Grand Canyon chapter 
of the Sierra Club to negotiate a land exchange proposal that 
went to the voters of Arizona and was passed.
    In Arizona, State trust land and resource sales have earned 
$4.1 billion--that is market value--over the trust's 100-year 
history. On top of that, revenues from leases, rights of ways, 
and other temporary instruments earn tens of millions of 
additional dollars each year. And to give some perspective, 
last year, which was definitely not Arizona's best economic 
year, $365 million flowed into the trust.
    If there is one thing I have learned throughout the course 
of my career, it is the importance of having land managed by 
agencies with the appropriate authority to do so. And what I 
mean by this is that each agency within the Federal Government 
is obviously governed by laws, rules, regulations, and policies 
that define the scope of activities and practices permissible 
on and for the lands they manage. the same is true at the State 
level.
    In an ideal world, each agency's inventory of lands would 
benefit from the specific authority vested in the managing 
agency. However, the assignment of lands to agencies has not 
been and is not now determined by a design based in logic. To 
the contrary, the history of land management assignments has 
been very much on an ad hoc, parcel-by-parcel basis, which has 
created a most interesting and often illogical and inefficient 
jurisdictional patchwork across the West.
    Whether it was during my time working for trust for public 
land, or as the land commissioner, or now, I have watched a lot 
of opportunities fade and sometimes vanish, while land managers 
tried to find the discretion to manage land or resources in a 
way that honored them.
    In my opinion, the best response to the jurisdictional 
patchwork problem faced all across the West is that which has 
been presented to the subcommittee today, the basis of which is 
to get our public and State trust lands into the agencies in 
which they can be most effectively managed. By doing so, lands 
that have conservation qualities can be managed for 
conservation; lands that have revenue-producing potential can 
be managed by agencies with a mandate to produce revenue. I 
cannot tell you the amount of man-hours that I suspect will be 
saved by this one proposed process.
    More importantly, though, is that places that are 
considered culturally sacred can be removed from peril once and 
for all. In Arizona, one prime example would be Adamsville, an 
archeological Mecca, which should be managed, perhaps, as a 
national park, rather than State trust land, where it 
theoretically is on the auction block any time an application 
is received to purchase or lease it.
    Likewise, places that are important habitat for threatened 
and endangered species, like cienega in Arizona, could remain 
permanently undisturbed in the hands of the BLM, whereas now 
they too are subject to the lease-and-sale mandates of the 
State Land Department. Places as notable even as the Grand 
Canyon, Walnut Canyon, and the Petrified Forest are all 
threatened by activities that can and, under law, really should 
be authorized by the State Land Department because of their 
revenue-producing capacity. The same can be said of lands near 
the Verde, San Pedro, Santa Cruz, and even Colorado Rivers.
    So, the question to me is this: If there is a safe and 
realistic alternative, wouldn't it be better if we could remove 
them from jeopardy and continue to draw visitors from all 
continents to our beautiful Western States? It is unnerving to 
know that these assets, which should be permanently protected, 
enjoy but the flimsiest of safeguards, the lowly MOU or 
something akin to that. In many cases, it is not even that. In 
many cases, among land managers, it is really just a hand-shake 
and a promise to do the best we can. We have all seen that, I 
think, as land management agencies.
    In my view, this concept is worthy of pursuit. I believe 
the amended authorization could do much to serve the greater 
good. Thank you.
    [The prepared statement of Ms. Baier follows:]

  Prepared Statement of Maria Baier, Chief Executive Officer, Sonoran 
                               Institute

    Chairman Bishop, Ranking Member Grijalva and Members:
    Thank you for the privilege of testifying before this subcommittee 
today about a legislative concept that has been referred to as ``School 
Trust Lands Ownership Within Federal Conservation Areas.''
    For the record, my name is Maria Baier, and I am the CEO of the 
Sonoran Institute, which is a 501(C)(3) non-profit organization founded 
22 years ago and headquartered in Tucson, Arizona, whose mission and 
vision is to inspire and enable community decisions and public policies 
that respect the land and people of western North America.
    Facing rapid change, communities in the West value their natural 
and cultural resources, which support resilient environmental and 
economic systems. The Sonoran Institute helps communities conserve and 
restore those resources and manage growth and change through 
collaboration, civil dialog, sound information, practical solutions and 
big-picture thinking. We have two offices in Arizona, and offices in 
Montana, Colorado and Mexicali, Mexico.
    The Sonoran Institute has been interested in land management issues 
since its inception, and we have produced a number of publications on 
the subject. I have brought some of those for your review. Most 
recently, we were pleased to have been a central party, along with the 
Grand Canyon Chapter of the Sierra Club, in promoting the passage of a 
statewide ballot measure that reinstated public-to-public land 
exchanges for the State Land Department.
    Prior to my tenure at the Sonoran Institute, I served as the 
Arizona State Land Commissioner, and as such, was responsible for 
directing the State agency that manages Arizona's 9.3 million acres of 
State Trust land. Under the New Mexico-Arizona Enabling Act and 
Arizona's Constitution and statutes, the Land Commissioner has a 
fiduciary obligation to ensure those lands produce revenue for 13 
different beneficiaries, the prime beneficiary being public schools, to 
which approximately 87 percent of those lands belong.
    In Arizona, State Trust land and resource sales have earned $4.1 
billion (market value) over the Trust's 100-year history. On top of 
that, revenues from leases, permits, rights of way and other 
``temporary'' instruments earn tens of millions of additional dollars 
each year. To give some perspective, last year, for example, which 
definitely was not Arizona's best economic year, an impressive $365 
million flowed into the Trust.
    Prior to my service as Land Commissioner, I was fortunate to have 
spent 10 years in the Governor's Office as a senior policy advisor and 
to have had other rewarding jobs with public, private and non-profit 
entities--most of which, in one way or another, have been focused on 
land and natural resources.
    If there is one thing I have learned throughout the course of my 
career, it is the importance of having land managed by agencies with 
the appropriate authority to do so. What I mean by this is that each 
agency within the Federal Government is governed by laws, rules, 
regulations and policies that define the scope of activities and 
practices permissible on and for lands they manage. The same is true at 
the State level. In an ideal world, each agency's inventory of lands 
would benefit from the specific authority vested in the managing 
agency.
    However, the assignment of land to agencies has not been, and is 
not now, determined by a design based in logic. To the contrary. The 
history of land management assignments has been very much on an ad hoc, 
parcel-by-parcel basis, which has created a most interesting and often 
illogical and inefficient jurisdictional patchwork across the West.
    Whether it was during my time working for the Trust for Public 
Land, or as the Land Commissioner, or now, at the Sonoran Institute, I 
have watched a great many opportunities fade and often vanish while 
land managers tried to find the discretion to manage land and/or 
resources in a way that honored them.
    I cannot think of an ``unfinished business'' box that would be more 
full than the one into which these opportunities would be dropped. And 
that is for at least two reasons: First, in the vast majority of 
situations, the nature and condition of the land and its resources have 
been in place since the earth was formed, and this being the case, 
there are few instances where ``the problem takes care of itself.'' In 
other words, discussions that began a century ago continue to this day.
    The second culprit of decade-long logjams is simply this: 
creativity and compromise by government agencies is too rarely 
encouraged and almost never authorized under law. Anything other than 
strict adherence to the letter of the law is intentionally prohibited, 
and that law generally substantially limits discretion.. There is, of 
course, a good motive for this, namely to prevent self-dealing and 
other types of corruption, However, in the pursuit to prevent 
corruption, we often lose discretionary provisions that might have 
fostered greater creativity and compromise.
    So, day after day, month after month, year after year, decade after 
decade, land managers meet and discuss virtually the same issues on the 
same lands and about the same resources. Their best resolution tool to 
date seems to be the Memorandum of Understanding, or something like it, 
but, as its name suggests, it is generally quite limited in time, scope 
and enforcement.
    If I had a nickel for every time I was at a meeting among land 
managers from various agencies and heard the phrase, ``I would do that 
if I could,'' I could have traveled to DC on my own jet.
    But there must be airtight laws on how we manage assets of the 
public trust, including land and natural resources. Seeking additional 
discretion in laws on a piecemeal basis will not accomplish much, and 
seeking it on a broader basis could result in all manner of unintended 
consequences.
    In my opinion, the best response to the jurisdictional patchwork 
problem faced all across the West is that which has been presented to 
this subcommittee today, the basis of which is to get our public and 
State Trust lands into the agencies in which they can be most 
effectively managed.
    By doing so, lands that have conservation qualities can be managed 
for conservation. Lands that have revenue-producing potential can be 
managed by agencies with a mandate to produce revenue. I cannot tell 
you the amount of man hours that will be saved by this one proposed 
process.
    More important, though, is that places that are considered 
culturally sacred can be plucked from peril once and for all. In 
Arizona, one prime example would be Adamsville, an archeological mecca, 
which should be managed as a National Park, rather than State Trust 
land, where it is theoretically on the auction block anytime an 
application is received to buy it. Likewise, places that are important 
habitat for threatened and endangered species, like Cienega in Arizona, 
could remain permanently undisturbed in the hands of the BLM, whereas 
now, they, too, are subject to the lease and sale mandates of the State 
Land Department.
    Places as notable as the Grand Canyon, Walnut Canyon, and the 
Petrified Forest are all threatened by activities that can, and, under 
law, really should be, authorized by the State Land Department because 
they bring in money. The same can easily be said of the Verde, San 
Pedro, Santa Cruz and even Colorado Rivers.
    So the question is this: If there is a safe and realistic 
alternative, why would we want to continue to jeopardize the integrity 
of any of the spectacular national monuments or conservation areas that 
grace our states and draw visitors from all continents?
    It is unnerving to know that these assets, which should be 
permanently protected, enjoy but the flimsiest of safeguards, the lowly 
MOU. And in many cases, not even that. Only a handshake and a promise 
to ``do the best we can.''
    Meanwhile, the earnest, devoted and talented staffs within our 
State land management agencies are, on a daily basis, stuck between a 
rock and a hard place.
    When they receive a purchase or lease application for a site in or 
near a conservation-eligible place, they must choose between litigation 
brought by those who seek to protect the pristine asset while forego 
the revenue generation mandate of the trust, and those who seek to 
compromise the asset and adhere to money-making mandate. I cannot 
overstate how prevalent this dilemma is.
    But just to be clear, in nearly every case, the law and the courts 
instruct State land departments to do the latter. That is why each 
special place in which there are State Trust land inholdings or State 
Trust land on the perimeter, whether in or out of a federally 
designated area, remains in jeopardy.
    In my view, this concept is worthy of pursuit. With proper 
legislative drafting, the risks can be limited to those that are 
reasonable. Of those issues that remain under debate with which I am 
familiar, there would appear to be ample room for constructive 
compromise.
    I believe this amended authorization could do much to serve the 
greater good.
                                 ______
                                 
    Mr. Bishop. Thank you. I appreciate all of you being here 
and the testimony that you have given. We will now open this up 
to questions from members of the committee. Mrs. Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman. And I am delighted to 
see the members of this panel today. I share some backgrounds 
with the gentlewomen on this panel. I was our State Land 
Director for a period of time. And I want to thank Ms. Opp for 
being the President of the Western State Land Commissioners. 
That is a fine organization.
    I also served on numerous boards with Luther Propst, who 
is, of course, your predecessor at Sonoran. And we go way back, 
as well, have many, many common interests and ideas. And I am 
so delighted to see all of you here today to discuss this 
topic.
    Wyoming has, of course, had a great deal of experience with 
the frustrations of trying to provide to the Federal Government 
inholdings in Grand Teton National Park, which are State lands. 
The ability to derive revenue from those lands, which are of 
just almost obscene financial value, has been minuscule. And 
yet, our effort to try to exchange two sections of State school 
trust lands with the Federal Government, or have the Federal 
Government buy them, has been a multi-decade process that is 
still not complete. And the appraisals become stale after a 
period of time.
    And then, as the foot-dragging goes on and on, we are 
unable to provide to the Federal Government the inholdings for 
Grand Teton National Park, and, at the same time, provide, as 
the panel pointed out, revenue for the schoolchildren of 
Wyoming. So, I am very intrigued and pleased by the plan and 
the proposed land exchanges that you are presenting.
    Questions. Ms. Opp, under the Western State Land 
Commissioner's proposal, what is the role of NEPA, as applied 
to both the decision of the State to divest, and the decision 
of the State to select lands?
    Ms. Opp. Mr. Chairman, Congresswoman, members of the 
subcommittee, we are not denying that there is a NEPA process, 
and that the Federal Government would want and desire to 
perform that. One of the things that could be achieved through 
the process, the Secretary of the Interior does not have to 
advance any alternative that would not be in the best interest 
of the Federal Government. So, as a State makes a selection, if 
it is deemed not in the best interest of the Federal 
Government, it doesn't have to advance.
    Also, in the NEPA process, it can sort of be a green light/
red light. It is either yes, it is something that is 
acceptable, and that alternative should be examined, or no, it 
shouldn't, rather than incorporating what typically is a NEPA 
process, a variety of alternatives. You could potentially 
streamline that in the NEPA process, just associated with this 
particular proposal.
    Mrs. Lummis. And with your proposal, does it apply to 
national parks, national forests, areas of critical 
environmental concern, national recreation areas? What is the 
scope of Federal land designations which have State inholdings 
that would be available for the exchange?
    Ms. Opp. Mr. Chairman, Congresswoman, members of the 
subcommittee, certainly we would propose, as States, to get out 
of those wilderness designations or national parks. We would 
not be selecting other pieces as part of this in lieu selection 
that would be included in those still. So we would be going to 
parcels on the in lieu selection as States that are from the 
unappropriated BLM ownership, if that answers your question.
    Mrs. Lummis. I also want the mirror image answer to that 
question. Of the lands that you, the State land commissioners, 
would be designating that you wanted to trade because they are 
trapped in Federal designations, would that include Forest 
Service, national forests, BLM lands?
    If it is--let's say they are not managed for multiple use. 
Is it anything that is not managed for multiple use that would 
be available for you to exchange to the Federal Government if 
it is trapped in a non-multiple-use Federal designation?
    Ms. Opp. Mr. Chairman, Congresswoman, members of the 
subcommittee, we would be looking at anything--we would be 
looking at deeding back to the Federal Government anything that 
is within a wilderness designation, roadless. At this point, 
you know, it would be national forests, as well. But, you know, 
perhaps we can have further discussion about that. Anything 
that basically is constrictive to our ability to manage.
    Mrs. Lummis. Yes, excellent. You know, the broader, the 
better, Mr. Chairman, from this perspective of the States. 
Because, as you know, the Federal Government finds ways to 
limit States' activities on their own land, as long as it is 
trapped in a Federal designation of any kind.
    Thank you, Mr. Chairman. Great hearing. I yield back.
    Mr. Bishop. Thank you. I am glad you were referring to 
policy in ``broader, the better.'' I thought you were referring 
to the size of my suit here.
    [Laughter.]
    Mr. Bishop. Mr. Grijalva, do you have questions?
    Mr. Grijalva. Yes. Thank you, Mr. Chairman. Maybe one basic 
question for all the panelists. The proposal that is being 
talked about and that is reflected in your written testimony is 
based on the idea that the Federal Government has a means to 
address land exchanges through the existing in lieu concept. 
However, both Western States Land Commissioners Association and 
the Children's Land Alliance have criticized in lieu process 
when addressing original school trust and land grants.
    We are asking Congress--you are asking Congress--to endorse 
and expand a concept you have all been critical of, to some 
extent, and in some cases litigated over. Given that your 
proposal makes the in lieu process better for stranded parcels, 
is this the national interest determination that is being 
discussed as part of a proposal? Is it the expedited or NEPA 
waivers that makes it better for those stranded parcels? Is it 
the presumption--I think it was--and one of them was planned 
adequacy?
    This isn't just keeping--applying existing authority to new 
lands, it is expanding authority. And I think we have to be 
clear of that. And we need to really understand what that 
expansion means.
    So, given that long-winded question, those three points, if 
any--if all the panelists would comment briefly, I would 
appreciate it very much.
    Ms. Opp. Mr. Chairman, Ranking Member Grijalva, and members 
of the committee, I think there is a variety of ways to 
approach the concept. Many States, the vast majority of States, 
have resolved their original in lieu selections. Some States 
still do have some outstanding. And a recent re-constitution of 
an MOU with the BLM, we believe, will help resolve those 
situations.
    The key to this process is it is just a--it is another 
tool, besides purchase and besides the existing exchange 
process.
    Mr. Grijalva. OK.
    Ms. Opp. We believe it is in the best interest of the 
Nation for both our land bases to be reconciled to their 
mission, such that the Federal Government can----
    Mr. Grijalva. But specifically the national interest 
concept, would you say that expands the authority?
    Ms. Opp. Mr. Chairman, members of the committee, I would 
say that it, in my experience, doesn't expand the authority in 
the national interest. It is still in the national interest now 
for land exchanges or purchases to happen. So I wouldn't say 
it's an expansion, it's simply another tool that can be used.
    Mr. Grijalva. An appearance for the first time of that 
tool.
    Ms. Opp. Say that again, please, sir.
    Mr. Grijalva. The tool, national interest tool, appears now 
for the first time in this kind of exchange process as a 
defined part of any legislation.
    Ms. Opp. Mr. Chairman, members of the subcommittee, it is a 
new tool to resolving the inholdings trapped in conservation 
areas. That is a true statement.
    Mr. Grijalva. Mr. Chairman, thank you. I think those three 
points that I tried to make with a question, and I appreciate 
the response from the one witness, I think are pertinent for 
further discussions, I think are essential to clarify and 
define those for further discussion. And with that, I yield 
back, I have no further questions.
    Mr. Bishop. Thank you. Mrs. Lummis, do you have other 
questions you wanted to ask?
    Mrs. Lummis. I do, Mr. Chairman.
    Mr. Bishop. Please.
    Mrs. Lummis. Thank you. Again, for Ms. Opp, as I understand 
it under your proposal, NEPA does not apply to the divestiture. 
But--so the Federal Government gets its land immediately, but 
the States will still have to go through a process in order to 
select their lands. Do I understand the proposal correctly?
    Ms. Opp. Mr. Chairman, Congresswoman, members of the 
subcommittee, the State itself would not perform NEPA. If the 
Federal agency, you know, needed to perform NEPA, then on the 
divestiture, then--from Federal lands, then they would do that.
    Mrs. Lummis. OK.
    Ms. Opp. As part of the process.
    Mrs. Lummis. What is a reasonable amount of time for the 
States to be able to select other BLM land of equal value, and 
for that land to be valued?
    Ms. Opp. Mr. Chairman, Congresswoman, members of the 
subcommittee, we believe that valuations could be on appraised 
value. But in some cases, where you have low-value lands, there 
are a variety of means to value that land. And so there are 
ways to get at that.
    We would like to see something on the order of 12 to 18 
months, in terms of resolution, once the deed went back to the 
Federal Government, that the State received its replacement 
lands. We believe that certainly is doable with dialog in the 
beginning, to make sure that the lands we are talking about are 
reasonable for both entities.
    Mrs. Lummis. Ms. Baier, might I ask you the same question? 
I want to--I would--I am interested in your opinion about what 
is a reasonable amount of time for these exchanges to occur, as 
well as your assessment of an appropriate valuation process.
    Ms. Baier. Thank you, Congresswoman. Chairman, 
Congresswoman, thank you. It is interesting in Arizona, because 
we negotiated several years ago--when I was on the Governor's 
staff, actually, with Secretary Babbitt, we actually began the 
negotiation for a fairly sizable land exchange that included 
lots of different Federal lands and lots of different State 
trust lands. So I know in Arizona it wouldn't take very long 
for us to identify--I am quite sure it wouldn't take very long 
for us to identify those lands.
    Mrs. Lummis. Were those transactions completed?
    Ms. Baier. No, they were not.
    Mrs. Lummis. And were----
    Ms. Baier. Which is part of the reason we are here today, I 
think, you know. It really is a very cumbersome process for----
    Mrs. Lummis. It is cumbersome. Why weren't they completed?
    Ms. Baier. You know, we identified them, and they got--I 
think they got held up in the appraisal process. It was the 
appraisal process that held it up. It was even identifying an 
appraiser that people felt could be objective, you know, on 
both sides. And then the length of time and, really, the cost 
of the appraisals, too, because they can be quite costly.
    Mrs. Lummis. Yes.
    Ms. Baier. I think in terms of my real view of this--
because I have not visited with each State or the organizations 
that may have an interest in this, but I think the outline that 
Kathy provided is probably reasonable. I think it is my--what I 
think might be a good idea is to pull some States in, and to 
pull some Federal agencies in, and have them discuss what a 
reasonable timeline would be, given the constraints on the 
resources.
    You know, there is only limited staff that can be devoted 
to these on the Federal side and on the State side. So, I mean, 
I think the best thing is to come up with a timeline that is--
can actually be reasonable for State and Federal agencies. I 
think Kathy's is probably reasonable. But I think it is a--you 
know, as I understand it, there is not a provision, a timeline 
that has been set in stone in any--in legislation. And I think 
the whole idea is to have this be a very functional 
authorization. And so I think it is worth doing that and 
finding out what a realistic timeline is.
    Mrs. Lummis. The Sonoran Institute, even predating your 
taking the leadership reigns, was interested in State lands 
issues and these kinds of matters. Was it driven more from a--
is it driven more from the conservation perspective, the K 
through 12 funding perspective, or both?
    Ms. Baier. Well, we are a conservation organization. So our 
interest is primarily the conservation component, trying to get 
land into hands of agencies that can manage it for 
conservation. But we take very seriously the mandate of the 
trust--obviously, you know, particularly given my history--and 
respect that.
    But it is really--the two are really not separate. I mean 
the whole reason that something like this is needed is so that 
there isn't that tension, and so that lands that can--should be 
in the hands of the State Land Department and should be 
producing revenue--can go over there, and lands that should be 
undisturbed can go into management agencies that can leave it 
undisturbed.
    Mrs. Lummis. Quick yes or no? Thank you, sir.
    Does the Sonoran Institute support the Western State Land 
Commissioner proposal?
    Ms. Baier. Mr. Chairman, Congresswoman, the--we have not 
seen final language. So the--we support the concept----
    Mrs. Lummis. OK.
    Ms. Baier [continuing]. That has been shared with us. Thank 
you.
    Mrs. Lummis. Thank you all. Thanks, panel. Thank you, Mr. 
Chairman. I yield back.
    Mr. Bishop. Thank you. Mr. McClintock, do you have any 
questions for this--these witnesses?
    Mr. McClintock. I will be happy to yield to my colleague, 
Mrs. Lummis.
    Mr. Bishop. Go ahead. That is OK, thanks.
    Mrs. Lummis. Thank you, Mr. Chairman. Ms. Opp, can you 
explain to people who may be concerned about the types of lands 
that States would be interested in acquiring in exchange for 
the lands they would be giving up, what those might be?
    Ms. Opp. Mr. Chairman, Congresswoman, members of the 
subcommittee, our primary interest is always going to be what 
is--what will be best for our trust in management. Sometimes it 
is acquiring ownership next to an existing parcel, so that we 
are able to efficiently manage a larger block of resources. 
Certainly when you look at the BLM ownership in Idaho, it is 
largely range land. So that is going to be our primary 
motivation.
    In other States it may be--we don't have a lot of oil and 
gas in Idaho; some States do, so they would be looking 
potentially at that. But, of course, our concept would be 
anything that is producing for the Federal Government would be 
off-limits. We are not looking to erode any Federal earnings 
potential.
    So, we would be looking at things that would best mesh with 
other ownership patterns that we have, other earning asset 
types that we are familiar with managing, anything that is 
going to, you know, promote the best earnings for our trust 
fund.
    Mrs. Lummis. Does any of the panel know whether the Forest 
Service has a disposal list, as does the BLM? The BLM has a 
list of properties that they can't manage and would like to 
divest themselves of. Does the Forest Service have a similar 
list, does anyone know?
    Ms. Opp. Mr. Chairman, Congresswoman, members of the 
subcommittee, I am not aware of a disposal list at the Forest 
Service level. I do know that the BLM has resource management 
plans. This proposal would not contemplate that a property to 
be acquired had to be on a disposal list.
    Mrs. Lummis. Right, right.
    Ms. Opp. It is simply that it would be available if it was 
unappropriated or not in a national or roadless area, or those 
major conservation criteria.
    Mrs. Lummis. OK. Mr. Chairman, thank you. I yield back. I 
realize you have been very indulgent. Thank you.
    Mr. Bishop. Now, Mr. McClintock, we appreciate you yielding 
back your time here. I am assuming you do, as well, right? OK.
    Let me ask just one--perhaps one final question. Ms. Baier, 
have you discussed this in lieu selection proposal with any 
Federal land managers?
    Ms. Baier. Mr. Chairman, I feel very fortunate that I have 
two former Federal land managers on our board of directors: 
Suzanne Lewis, who was with the Park Service for a number of 
years; and then Henri Bisson, who was with the BLM, and I think 
had been the Acting State Director for Utah, and also the State 
Director for California.
    And I checked in with my entire board of directors before 
agreeing to testify here today, and they were all very 
supportive, and particularly the two Federal land managers, who 
have seen the benefits, both on the part of the Park Service 
and the part of the BLM, of exchanges in the past. And so, I 
have, and they wholeheartedly supported the testimony today. 
Thank you.
    Mr. Bishop. Do--would any of you like to give one final 
statement as to the concept of appraisals as being a problem? 
Appraisals, as we all know, are very subjective. And I have 
seen them being--I mean you might as well use a Ouija board and 
some tarot cards to come up with a proper appraisal. Do any of 
you have examples or suggestions of how the appraisal process 
is problematic? And you don't have to, but if there is anything 
you would like to say in conclusion, I would appreciate it.
    Ms. Baier. Mr. Chairman, what I would like to say is just 
that I--what I think, both from the State side and from the 
Federal side, is that there ought not to be a prohibition on 
having an appraisal process on these relinquishments. But in 
some cases, what we have--what at least I have learned, in my 
experience, in some cases the appraisal takes time and money 
and resources that would prevent a very wise exchange from 
occurring.
    And so, I guess what I would say is I am not sure that they 
need to be prohibited where they would be--where they could be 
helpful. But I think in many cases, you know, to find 
reasonable values on both sides would work well.
    And I think, given the fact that the State Land Department, 
the State land commissioners, our trustees--and they are held 
to a very high legal obligation, and the Secretary of the 
Interior is also held to a very high legal obligation to 
protect the public trust--I think that the appraisal process in 
some cases may be too burdensome.
    And I think there is even language that came from the 
Supreme Court that allows some discretion in the appraisal 
process on these relinquishment processes. That would be my 
thought.
    Ms. Opp. Mr. Chairman, I would just add that it is often 
not so much the appraisal process, in our experience, as much 
as the level and number of internal reviews that happen after 
the appraisals are completed. We have seen, in a number of 
cases in land exchanges in our State, in Idaho, needing to go 
through two cycles of appraisals because they grow stale, 
depending on when they are done in the process.
    And as Ms. Baier pointed out, when they don't--when they no 
longer meet the standards of professional appraisal due to, 
say, being 12 months old or less, depending on market 
conditions, and then you are asking the beneficiaries to go 
through and pay for another round, which can be hundreds of 
thousands of dollars, you start to question the utility of it 
when you have professional land managers on both sides and a 
lot of data that could be used to value that.
    So, maybe it is how you approach giving latitude, depending 
on the number of parcels and the values, and also the review 
cycles that come along with it that could help speed the 
process.
    Mr. Bishop. Thank you. I appreciate all those answers and 
the questions that have been given.
    If there are no other questions, I want to thank the 
witnesses profusely for your effort and time to be here, and 
the testimony that you have given.
    Members of the subcommittee may have additional questions. 
They will submit to you in writing if they do. We would ask for 
your responses to be presented in writing. The record will be 
open for 10 days to receive the questions or additional 
responses.
    If there is no further business, without objection--once 
again, great appreciation to all of you who have attended and 
participated today--this subcommittee is adjourned.
    [Whereupon, at 11:45 a.m., the subcommittee was adjourned.]

              [Addional Material Submitted for the Record]

     Prepared Statement of Mary M. Abrams, Ph.D., Director, Oregon 
                       Department of State Lands

    I am Mary Abrams, Director of the Oregon Department of State Lands. 
I want to thank the subcommittee for the opportunity to testify today.
    I'm here today representing my agency as well as the Western States 
Land Commissioners Association. Oregon is 1 of 23 member States in the 
organization. My purpose today is to provide a state-specific example 
of the background, need, and solution to a problem that affects all 
Western States.

                    OREGON DEPARTMENT OF STATE LANDS

    The Department of State Lands is the administrative agency of the 
State Land Board, Oregon's oldest public board. It was established at 
statehood by the 1859 Oregon Constitution to oversee ``school lands'' 
granted by the Federal Government. Throughout its history, the Governor 
has chaired the board, and the two other members have been the 
Secretary of State and the State Treasurer.
    As settlers came West in the 1850s and beyond, Oregon needed to 
educate emigrant children and those born in our new State. Recognizing 
this, the U.S. Government granted our land-rich, cash-poor State 
sections 16 and 36 of each township to generate money for schools.
    Oregon's original land grant totaled about 3.4 million acres. 
Today, only a fifth of that acreage (about 770,000 acres) remains. 
These Trust Lands have a very specific purpose that differentiates them 
from other public lands managed for a variety of uses: they are solely 
dedicated to making money for Oregon's schoolchildren.
    The Land Board manages its lands for long-term, multi-generational 
support of public education. Revenues from these lands are deposited in 
the Common School Fund, a trust fund for schools.
    The estimated total market value of Oregon's school Trust Lands is 
between $500 and $600 million. Oregon's Trust Lands revenues are 
deposited into the Common School Fund. In fiscal year 2012, gross 
receipts totaled over $13 million.

                            FUNDING SCHOOLS

    The total market value of the fund is now about $1.1 billion. All 
public school districts in Oregon receive two distributions a year from 
the fund's interest earnings. The average annual distribution since 
2008 has been about $50 million. Common School Fund distributions are a 
small but important part of Oregon's school funding. These funds 
support the equivalent of 48 full-time teachers in a large district 
such as Portland, and 3 full-time teachers in a small coastal 
community. In other words, the money matters.
    Oregon's goal has been to steadily increase our funding for schools 
through more strategic land management planning over time. This 
includes implementing land exchanges and sales to maximize our high-
revenue producing lands while divesting of our non-producing lands.

                     MAXIMIZING REVENUE GENERATION

    Revenue from Common School Fund lands over time has included both 
annual receipts from land management operations (timber harvest 
receipts and grazing leases for example) as well as funds from sales of 
some land assets. However, because of the patchwork nature of the 
original land grant to Oregon (16th and 36th sections), there have 
always been management challenges with our Trust Lands.
    Not all the granted sections were high value, and the dispersed 
nature of the holdings caused inefficiencies as it is generally easier 
to manage contiguous blocks of land with similar management goals than 
it is to manage small, non-consolidated parcels.
    Because of these constraints, land sales and exchanges have been an 
important part of managing our real estate portfolio to maximize school 
revenue. We have divested of or exchanged difficult-to-manage lands and 
reinvested in lands with higher revenue potential. Historically, 
consolidation occurred on forestlands; and more recently, land 
acquisitions have been commercial properties.

                 WHY DOES THE FEDERAL GOVERNMENT MATTER

    First and foremost, Federal lands are our biggest neighboring land 
owners. Most of Oregon's remaining Trust Lands are interspersed with 
Federal lands (Bureau of Land Management and U.S. Forest Service) which 
increasingly have fundamentally different management goals than those 
of State Trust Lands. Federal land management has evolved over time 
from the early days of open range to designation of areas for special 
land uses (parks, scenic areas, wilderness areas, etc.) including an 
increased emphasis on multiple-use management. These shifts have often 
left state Trust Lands isolated within larger Federal holdings with 
dramatically different management objectives.
    The modern era of Federal land management has also increased the 
complexity of Federal land exchanges that historically were a tool to 
resolve some of the management challenges between State and Federal 
lands. Therefore, Congressional and administrative decisions that 
affect Federal land management do affect our ability to maximize 
revenue for schools, particularly when they reduce options for Trust 
Land portfolio management.
    Such Federal decisions can leave state lands stranded within 
Federal designations, limiting effective management of these trust 
assets for revenue generation. It also decreases their value for 
selling or trading, and for almost any type of development or other 
use.
    In Oregon we have just less than 10,000 acres that are surrounded 
by Federal lands with different management objectives. These lands are 
valued at roughly $8 million, and their isolation within and dependence 
on Federal land decisions greatly reduces their value.
    State Trust Lands surrounded by Federal designations can be 
encumbered by Federal threatened and endangered species policies, 
access constraints, unintended consequences of Federal fire protection 
policies, and potentially other Federal actions that limit 
opportunities for generating revenues. Because of these encumbrances on 
our Federal neighbors, State Trust Lands trapped within Federal 
conservation designations are often virtually worthless to the State's 
school trust, depriving current and future generations of school 
children of valuable revenues to support public education.

                              THE SOLUTION

    As we in the Western States see it, the best remedy to this 
situation is to either facilitate an exchange of these landlocked State 
parcels for other Federal lands, or sell our trust assets to the land-
holding Federal agency. However, normal Federal land exchange and sale 
procedures are lengthy, complex administrative processes that require 
money and time--both substantial drains on States' ability to manage 
their Trust Lands. The scarcity of Federal funds for land acquisition 
adds to the uncertainty and low likelihood of success in traditional 
land sales and exchanges with Federal land management agencies.
    So the Western States would like to propose a different approach.

                IN LIEU SELECTION PROCESS AND A NEW TOOL

    At statehood, some of the 16th and 36th sections were already owned 
and therefore unavailable. For these sections, States were given ``in 
lieu selection'' credits, allowing States to select other available 
Federal parcels in lieu of the original sections.
    States have largely exhausted those credits since statehood but 
some are still outstanding. Oregon is still working with the BLM to 
finalize exchanges for our last 1,600 acres of credits. The process to 
secure ``in-lieu lands'' has been lengthy, but it does work.
    The Western States Land Commissioners Association has developed a 
proposal based on this in-lieu selection model to provide a solution to 
Trust Land parcels that are landlocked by Federal lands. The proposal 
would allow State land managers to relinquish title to lands trapped 
within Federal conservation areas in exchange for BLM lands not already 
protected as a Federal conservation area, and that have not been 
otherwise appropriated.
    The model provides a workable methodology for removing Trust Lands 
from Federal conservation areas. This fulfills the States' funding 
mandate for public education and provides Federal land managers with 
conservation areas that are largely clear of inholdings.
    The Western States proposal is simple and elegant--and is based on 
an existing process. It's a win-win for both the Federal Government and 
States:

    <bullet> It provides a mechanism for States to divest Trust Lands 
            whose management and value are affected by their landlocked 
            position within Federal lands.
    <bullet> It allows Federal land managers to more effectively manage 
            their lands.
    <bullet> It provides a viable option for removing State Trust Lands 
            from the political debates surrounding Congressional 
            conservation area creations.
    <bullet> It accomplishes all of this using fewer resources--both 
            State and Federal--to process exchanges than typical 
            Federal land exchanges or purchases.

    The WSLCA proposal will help Oregon better meet its constitutional 
mandate for school Trust Lands by increasing management flexibility on 
almost 10,000 acres of such lands. Land assets worth $8 million can be 
``unlocked'' to generate greater revenues for Oregon's school children 
into the future.
    In summary, because of these advantages, I encourage you to 
consider any legislation that supports this proposal. It will help 
Western States, such as Oregon, but also the rest of the Nation through 
increased government efficiencies at the State and Federal levels.
    Thank you.
                                 ______
                                 
          Letter Submitted for the Record by James D. Ogsbury
                    Western Governors' Association,
                                          Denver, CO 80202,
                                                     July 17, 2013.
The Honorable Rob Bishop, Chairman,
Subcommittee on Public Lands
  and Environmental Regulation,
Committee on Natural Resources,
U.S. House of Representatives,
Washington, DC 20515.
    Dear Chairman Bishop:
    Attached please find a resolution, recently adopted by Western 
Governors, supporting efforts to simplify Federal-State land exchanges. 
On behalf of the Western Governors' Association (WGA), I respectfully 
request that the document be included in the record of the Friday, July 
19, 2013 hearing on various public lands bills scheduled for the 
Subcommittee on Public Lands and Environmental Regulation.
    The Governors' resolution supports reauthorization of the Federal 
Lands Transfer Facilitation Act (FLTFA). H.R. 2068, sponsored by 
Representative Lummis, would reauthorize FLTFA, and WGA commends her 
for introducing this important legislation.
    The Governors also support other efforts to reform Federal-State 
land exchange processes. WGA is working with the Western States Land 
Commissioners' Association, for example, on its proposed legislation to 
solve part of the land tenure problems based on a process known as ``in 
lieu'' selections. WGA also supports Federal legislation to amend the 
Federal Lands Policy and Management Act to:

    <bullet> Index the existing $150,000 threshold for using an 
            expedited exchange process for inflation (the $150,000 
            threshold was adopted in 1986);
    <bullet> Allow use of a statement of value to replace the appraisal 
            process in Federal-State exchanges of similar rural lands; 
            and
    <bullet> Presume any agreed-upon Federal-state land exchange as in 
            the public interest unless clearly countervailing factors 
            are present (Federal-private exchanges are not included in 
            this presumption).

    With appreciation for your leadership and best wishes for continued 
success, I am
            Respectfully,
                                          James D. Ogsbury,
                                                Executive Director.
                                 ______
                                 
         Western Governors' Association Policy Resolution 13-01

               Federal-State Land Exchanges and Purchases

                             A. BACKGROUND

1.  Congress granted lands to States as they were admitted into union 
        to be held in trust for support of public schools. Over time, 
        the Federal Government has created conservation areas such as 
        national monuments, wildlife refuges and wilderness study areas 
        on public lands that surround or affect many of these trust 
        lands. tribal reservations and military withdrawals have also 
        created state enclaves within Federal landholdings.

2.  Federal and State land managers, land users, the environmental 
        community and the public all agree that the ``checkerboard'' 
        land ownership pattern prevailing in much of the West is a 
        major hindrance to effective and ecologically sound management 
        of both Federal and State lands.

3.  Currently, there are three methods of resolving the checkerboard 
        land tenure issue in the West: (1) Land exchanges under 
        existing legislation, such as Federal Lands Policy and 
        Management Act (FLPMA); (2) the direct Federal purchase of non-
        Federal lands within Federal management areas under Federal 
        Lands Transfer Facilitation Act (FLTFA); and (3) individual 
        acts of Congress. However, all three are lengthy, expensive, 
        and inefficient.

4.  Federal land exchanges--whether with States or private interests--
        are conducted under the FLPMA. FLPMA requires that land 
        exchanges be of equal value as determined by appraisal and that 
        the public interest is ``well served by making [the land] 
        exchange.'' The complex regulatory requirements associated with 
        FLPMA exchanges create unintentional barriers to Federal-state 
        land exchanges.

5.  Generally, the estimated values of lands proposed for exchange are 
        established through appraisals, which must be done in 
        accordance with Federal standards and other requirements. If 
        the Federal land value is estimated to be less than $150,000, 
        an appraiser's statement of value (a professional assessment 
        that is based on more limited information than is included in a 
        full appraisal) can be used.

6.  The FLTFA allows the Department of the Interior agencies and the 
        Forest Service to use the proceeds from sales of surplus 
        Federal lands to acquire inholdings in national parks, national 
        wildlife refuges, national forests and other designated areas, 
        including the National Landscape Conservation System. FLTFA was 
        passed in 2000 with a 10-year sunset. The act was reauthorized 
        for 1 year in 2010, but was not extended at the July 2011 
        expiration.

7.  The Western States Land Commissioners' Association (WSLCA) has 
        drafted proposed legislation to solve part of the land tenure 
        problems based on a process known as ``in lieu'' selections. In 
        lieu selections are established by 43 U.S.C. 851-852 and allow 
        western land grant States to select Federal lands in lieu of 
        land originally granted to the States that became unavailable 
        due to preexisting conveyances or Federal special purpose 
        designations. Under the WSLCA proposal, States would have the 
        right to relinquish State trust lands within Federal 
        conservation designations to the United States, and select 
        replacements lands from unappropriated Federal public lands 
        within the states.

                     B. GOVERNORS' POLICY POSITION

1.  To improve management of both Federal and State lands in areas 
        where there is checker-boarded ownership or State lands are 
        completely captive within the boundaries of a Federal 
        management area, Western Governors call on Congress to simplify 
        and expedite the Federal-State land exchange and sale process.
2.  The Governors request Congress amend the FLPMA to add language to:

    <bullet> Index the existing $150,000 threshold for using an 
            expedited exchange process for inflation since the $150,000 
            threshold was adopted in 1986;
    <bullet> Allow use of a statement of value to replace the appraisal 
            process in Federal-State exchanges of similar rural lands; 
            and
    <bullet> Presume any agreed Federal-State land exchange as in 
            public interest unless clearly countervailing factors are 
            present (Federal-private exchanges are not included in this 
            presumption).

3.  The Governors request that Congress reauthorize the FLTFA with 
        priority to be given to acquisition of State inholdings.

4.  The Governors encourage Congress to introduce and pass legislation 
        that incorporates the proposed Federal-State land selection 
        improvements proposed by the WSLCA.

                   C. GOVERNORS' MANAGEMENT DIRECTIVE

1.  The Governors direct the WGA staff, where appropriate, to work with 
        Congressional committees of jurisdiction and the executive 
        branch to achieve the objectives of this resolution including 
        funding, subject to the appropriation process, based on a 
        prioritization of needs.
2.  Furthermore, the Governors direct WGA staff to develop, as 
        appropriate and timely, detailed annual work plans to advance 
        the policy positions and goals contained in this resolution. 
        Those work plans shall be presented to, and approved by, 
        western Governors prior to implementation. WGA staff shall keep 
        the Governors informed, on a regular basis, of their progress 
        in implementing approved annual work plans.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
